         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The Department’s Utilization of
Fleet Vehicles




DOE/IG-0728                            May 2006
REPORT ON THE DEPARTMENT'S UTILIZATION OF FLEET VEHICLES




TABLE OF
CONTENTS


           Fleet Vehicle Utilization


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................6


           Appendices


           1. Objective, Scope, and Methodology......................................................9

           2. Detailed Site Results ............................................................................11

           3. Prior Reports ........................................................................................12

           4. Management Comments ......................................................................13
FLEET VEHICLE UTILIZATION

Fleet Management       The Department of Energy's (Department) Property
Requirements and       Management Regulations require fleets of vehicles to be
Utilization            kept at the minimum necessary to meet programmatic
                       needs. To that end, they require that organizations
                       establish controls to help ensure the most economical
                       utilization of vehicles. While fleet managers are allowed to
                       establish local utilization standards that are less than those
                       specified by the Department, they are also required to
                       maintain utilization records, review utilization at least
                       annually and identify all vehicles failing to meet local use
                       objectives. Once underused vehicles are identified, fleet
                       managers must take prompt action to reassign them to
                       higher use areas, dispose of them, or justify the continued
                       need for the vehicles. All requests to retain underutilized
                       vehicles must be approved by the Department. Despite
                       these requirements, we found that a significant percentage
                       of the Department's fleet vehicles were underutilized.

                                          Underutilized Vehicles

                       Our review disclosed that fleet managers at the sites we
                       reviewed were not always adequately managing fleet
                       vehicles. Based on our comparison of local use standards –
                       all of which were significantly lower than Department
                       standards, we determined that many of the fleet vehicles
                       maintained by 18 separate organizations were underused.
                       Specifically, we discovered that, on average, about 28
                       percent of the over 1,700 vehicles in our sample did not
                       meet local use standards for Fiscal Years (FY) 2004 and
                       2005.
                       The extent of underutilization during FYs 2004 and 2005 at
                       the sites we visited, more fully described in Appendix 2, is
                       illustrated by the following table:

                            Location          Vehicles     Average #         Average %
                             Visited           Tested     Underutilized     Underutilized
                      Lawrence Berkeley         122           76               62%
                      National Laboratory
                      Oak Ridge                  644           216              34%
                      Reservation
                      Richland                   487           114              23%
                      Nevada                     191            48              25%
                      Yucca Mountain              75            13              17%
                      Lawrence Livermore         198            13               7%
                      National Laboratory
                      Total                     1,717          480              28%

________________________________________________________________
Page 1                                            Details of Finding
                      Underutilization rates varied between sites and
                      organizations and in some instances were particularly
                      severe. For example, at Lawrence Berkeley National
                      Laboratory (Berkeley) we noted that about 27 percent of
                      the vehicles we reviewed were driven less than half the
                      miles necessary to meet local use standards in FY 2004.
                      About 10 percent of the vehicles reviewed at the Oak Ridge
                      Reservation (Oak Ridge) fell into that same category. We
                      also identified 69 vehicles scattered across organizations
                      that went virtually unused, traveling less than 1000 miles
                      during FY 2004 – 19 of which were driven less than 500
                      miles.
                                Utilization Standards and Recordkeeping

                      While underutilization rates at Lawrence Livermore
                      National Laboratory (Livermore) were the lowest of the
                      sites we visited, we identified standards and recordkeeping
                      issues that most likely skewed the results of our testing.
                      Specifically, we noted that utilization of most vehicles at
                      the site was measured in either hours or trips. However,
                      Livermore's method of recording hours and trips did not
                      appear to reflect actual use. For those vehicles with an
                      hour-based utilization standard, officials told us that
                      utilization was recorded based on the time the vehicle was
                      not parked in its assigned space. Hour reports indicated
                      that the majority of these vehicles were used the same
                      number of hours each month but did not show where they
                      were used or for what purpose. We also noted several
                      instances where a vehicle recorded a significant number of
                      hours of use with no change in the odometer readings from
                      the prior month. For example, use records for one
                      particular vehicle noted that it had been used for 160 hours
                      in February 2004; however, no mileage was incurred as a
                      result of the "use."

                      Furthermore, Livermore does not keep detailed trip
                      records as required by the Department's Property
                      Management Regulations for many of their fleet vehicles.
                      Even though they employ a standard of 9.2 trips per day,
                      they do not maintain "by trip" records. Instead, their
                      electronic recordkeeping system records mileage and
                      assumes that 0.8 mile is equal to one trip. As we noted in
                      our previous report, Vehicle Use at Lawrence Livermore
                      National Laboratory (WR-B-00-07, September 2000), it
                      was found that one vehicle was used for a trip to Walnut
                      Creek, California, a round trip of 62 miles. Using

________________________________________________________________
Page 2                                            Details of Finding
                      Livermore's mileage-to-trips method for reporting vehicle
                      use made this one trip count as 77 trips. Thus, vehicles
                      could be used and standards met with only one or two
                      days of operation per month.

Fleet Management      We noted several issues that adversely affected the
                      management of fleet vehicles across the complex. Even
                      though specifically required by the Department's Property
                      Management Regulations, our review disclosed that fleet
                      managers seldom took action to reassign, dispose of, or
                      seek Federal approval to retain underutilized vehicles. We
                      also noted that fleet utilization rates may have declined at
                      certain contractors because they were permitted to acquire
                      and use small motorized carts, trucks and vans not licensed
                      for use on public roads to perform cargo and passenger
                      carrying tasks without making a corresponding reduction in
                      fleet vehicles. Finally, we observed that Federal Fleet
                      Managers did not require detailed vehicle utilization reports
                      to be submitted. Such information could have allowed
                      them to identify and correct underutilization.


                               Reassignment or Disposition of Vehicles


                      Despite high underutilization rates, fleet managers at the
                      majority of the sites did not always take steps to identify
                      vehicles failing to meet their local use objectives, and either
                      reassign them to higher use areas or dispose of them.
                      During our review we noted that fleet managers had ample
                      opportunity to identify underutilized vehicles. For
                      example, organizations that leased vehicles through the
                      General Services Administration are required to submit
                      mileage information monthly for billing purposes. In spite
                      of detailed knowledge regarding use, organizations seldom
                      took the next step to reassign or dispose of underused
                      vehicles. After being notified of the results of our test
                      work, fleet managers at Oak Ridge and Richland indicated
                      that action either had been or would be taken on a number
                      of those vehicles we identified as being underutilized.

                      In addition to a lack of affirmative management action
                      within organizations, we found that virtually all of the
                      vehicles we identified as being underutilized were retained
                      without required Federal approval. Although specifically
                      required by the Department's Property Management
                      Regulations, organizations did not prepare or submit

________________________________________________________________
Page 3                                            Details of Finding
                      written justifications documenting the continued need for
                      underused vehicles. None of the organizations we
                      reviewed were able to supply us with documentation to
                      support the justification and approval by the Department to
                      retain vehicles we identified as underused. While one site
                      provided us with justifications for many of their
                      underutilized vehicles, the justifications were dated after
                      our test work and, according to a Federal official, had never
                      been provided to or approved by the Department.

                      While some fleet managers told us that they attempted to
                      take action to improve utilization rates, they were
                      ultimately unsuccessful. For example, fleet managers at
                      some Richland sites told us that they reviewed vehicle
                      utilization each quarter. When they found underutilization
                      in two consecutive quarters, they indicated that they
                      notified users that their vehicles were underutilized.
                      However, our analysis demonstrated that they were not
                      successful in increasing vehicle utilization for many of their
                      underutilized vehicles. A former contractor fleet manager
                      at Oak Ridge also indicated that attempts to reassign
                      several underused vehicles were unsuccessful.

                                             Other Vehicles

                      We also noted that the Federal Fleet Managers allowed
                      sites to purchase at least 488 additional "other" vehicles
                      which can be used in place of a fleet vehicle for certain
                      applications. For example, at Oak Ridge, Bechtel Jacobs
                      currently maintains 169 "utility vehicles," some of which
                      are Tiger trucks and vans for carrying passengers and
                      cargo. These vehicles are similar in appearance to
                      conventional vans and trucks, but are smaller and are not
                      licensed for use on public roads. One organization we
                      reviewed told us that they purchased these vehicles for a
                      variety of reasons, including meeting fuel economy goals.
                      We found, however, that organizations did not evaluate the
                      impact of these vehicles on fleet utilization and did not
                      reduce their fleet vehicles to account for the additional
                      capacity provided by them.

                                        Fleet Utilization Reports

                      Federal Fleet Managers did not take action to obtain
                      sufficiently detailed information on vehicle usage to permit
                      them to effectively monitor fleet management. Currently,

________________________________________________________________
Page 4                                            Details of Finding
                      fleet managers are required to submit Agency Reports of
                      Motor Vehicle Data that show the total number of miles
                      driven by vehicle class – data that permits reviewers to
                      determine only the average use of all vehicles in the fleet.
                      Absent utilization information on each vehicle, Federal
                      Fleet Managers lacked the tools necessary to permit them
                      to identify vehicles that should have been reassigned,
                      disposed of, or justified for retention. The Federal Fleet
                      Manager at Oak Ridge acknowledged that receiving
                      information on individual vehicle utilization from each site
                      would be beneficial. He also told us that he could not
                      compel such information because the Department does not
                      currently require it. However, according to the
                      Headquarters Director of Personal Property Division,
                      existing contract clauses permit Federal Fleet Managers to
                      request any report they deem necessary to properly monitor
                      the contractors.

                      Problems with evaluating fleet use based only on average
                      use statistics is readily demonstrated by issues we
                      encountered when performing our testing at Berkeley. For
                      example, Berkeley's local use standard is based on an
                      average for the entire fleet rather than on an individual
                      vehicle use. Use data for shuttle buses that were in
                      constant use and traveled a significant number of miles
                      were combined with information on other fleet vehicles – a
                      practice that permitted the organization to meet usage
                      standards even though a significant number of individual
                      vehicles were underused. A Berkeley official stated that
                      the site's standard was established in coordination with a
                      Federal property manager. We noted, however, that a May
                      2001 memorandum from Headquarters Procurement
                      required that local use objectives be established on a per
                      vehicle basis and not as an average. Despite that direction,
                      Berkeley continued to employ average usage standards.

Fleet Efficiency      If the Department is unable to ensure that fleet vehicles are
                      being utilized in an efficient manner, then there is a risk
                      that constrained funds will be spent on unnecessary costs.
                      A memo from the Oak Ridge National Laboratory Director,
                      Facilities and Operations Directorate, acknowledged that
                      "underutilized vehicles tax site resources because they
                      require the same level of scheduled maintenance, tracking,
                      and reporting as fully utilized vehicles." Thus, there are
                      potential savings associated with the cost of operating
                      underutilized and unnecessary vehicles. For example, were

________________________________________________________________
Page 5                                            Details of Finding
                     contractors to dispose of only those vehicles whose
                     utilization rates were less than 50 percent of the local use
                     standard and appropriately reassign or justify retention of
                     the remainder of underutilized vehicles, savings of $2.9
                     million per year are possible for just the sites and
                     contractors we tested. If the results of our statistical sample
                     were projected to the entire fleet using the same
                     assumptions outlined above, savings of as much as $9.1
                     million per year might be possible. There is also the
                     potential that underutilized vehicles may be replaced in the
                     future even though, as evidenced by their underutilization,
                     they may be unnecessary. Additionally, the Department
                     has paid the cost of purchasing the "other" vehicles, some
                     of which currently sell for almost $15,000 each. These
                     vehicles may be unnecessary if they serve the same purpose
                     as the site's fleet vehicles and the fleet vehicles are not
                     sufficiently utilized.


RECOMMENDATIONS      To address the issues identified in this report, we
                     recommend that the Administrator, National Nuclear
                     Security Administration; the Assistant Secretary for
                     Environmental Management; the Director, Office of
                     Science; and the Director, Office of Civilian Radioactive
                     Waste Management require:

                        1. Federal Fleet Managers to ensure that:

                              a) Sites comply with existing requirements to
                                 reassign or dispose of underutilized vehicles,
                                 or obtain Departmental approval to retain
                                 them in accordance with existing
                                 requirements; and,
                              b) Complete utilization records are maintained
                                 which accurately record utilization of each
                                 vehicle based on the current standards in
                                 place, and that such records are retained for a
                                 reasonable period of time.

                        2. Site fleet managers to:

                              a) Identify each underutilized vehicle in their
                                 fleets and submit adequately detailed vehicle
                                 utilization reports to Federal Fleet Managers
                                 at least annually; and,


________________________________________________________________
Page 6                                          Recommendations
                              b) Either reduce their fleets to account for the
                                 increased capacity provided by the purchase
                                 of "other" vehicles or justify the need for the
                                 additional capacity.


MANAGEMENT           Management concurred with our recommendations and
REACTION AND         generally agreed with our findings. Management's
AUDITOR COMMENTS     comments are responsive to our recommendations and its
                     actions, when fully implemented, should improve the
                     Department's utilization of fleet vehicles. With the
                     exception of the Office of Science, management comments,
                     in their entirety, are included in Appendix 4. Office of
                     Science comments included detailed management
                     assertions about specific statements in the report which are
                     addressed below.

                     We are encouraged by the actions taken since the
                     completion of our field work including:

                        (1) The Office of Civilian Radioactive Waste
                            Management reduced its fleet by 19 vehicles in FY
                            2005;

                        (2) Oak Ridge is working vigorously to improve
                            vehicle rotation and has required that reviews be
                            done on a semi-annual basis;

                        (3) BWXT Y-12 has identified a number of vehicles
                            that are excess to their needs, is taking action to
                            reduce their fleet and is more consistently using trip
                            logs; and,

                        (4) Oak Ridge National Laboratory had turned in six
                            vehicles due to underutilization.

                     Management Comment:

                     The Office of Science, through its Oak Ridge office,
                     acknowledged its fleet was underutilized but believed that
                     after considering seasonal adjustments and other usage
                     statistics, the site's underutilization amounted to 26 percent
                     rather than the 34 percent we reported. Management
                     indicated our report contained errors regarding statements
                     attributed to a former fleet manager, the number of other
                     vehicles in use at a particular contractor, and the

________________________________________________________________
Page 7                              Recommendations and Comments
                     requirement or ability of contractors to provide Federal
                     Fleet Managers with detailed vehicle utilization reports.
                     Finally, Oak Ridge management stated that limited
                     utilization data on "new" vehicles could have skewed our
                     results and that it would not, as the report suggests, permit
                     the replacement of underutilized vehicles with new models.

                     Auditor Response:

                     Because Oak Ridge's analysis of utilization was based on
                     data not available to us at the time of the audit, we cannot
                     validate it. We are encouraged, however, that the site has
                     acknowledged underutilization and is taking action to
                     address the issue. With regard to management's statement
                     on reporting errors, we re-confirmed information in our
                     report and adjusted the number of other vehicles in use
                     from 150 to 169 to reflect current data. We also modified
                     our report and clarified that the fleet manager quoted in our
                     report was a contractor employee. Our point with regard to
                     detailed vehicle utilization reports was that the
                     Department's property management regulation did not
                     require the submission of such information and fleet
                     managers did not regularly request it.

                     Our review at Oak Ridge did include some new vehicles
                     that were received as replacements. To account for the fact
                     that the vehicles were new and to help eliminate sample
                     evaluation bias, we pro-rated the local utilization standard
                     to reflect the amount of time which they were in service.
                     However, most of the vehicles we tested at Oak Ridge had
                     been in use for a significant period of time. Additionally,
                     our statement regarding underutilized vehicles being
                     replaced was meant to provide a general statement of
                     potential harm that could apply to any site; not to Oak
                     Ridge in particular.




________________________________________________________________
Page 8                                                 Comments
Appendix 1

OBJECTIVE             To determine whether the Department was effectively
                      managing its fleet vehicles.


SCOPE                 The audit was performed between April 2005 and May
                      2006. We assessed vehicle utilization at the Nevada Site
                      Office, the Nevada Test Site, Yucca Mountain; Lawrence
                      Livermore National Laboratory, and Lawrence Berkeley
                      National Laboratory, CA. We also assessed utilization at
                      Oak Ridge, TN, for each of the eight prime contractors
                      (including Bechtel Jacobs Corp., BWXT Y-12, East
                      Tennessee Mechanical Contractors, Oak Ridge Associated
                      Universities, Oak Ridge National Laboratory, Oak Ridge
                      Office, Office of Scientific and Technical Information, and
                      Wackenhut). Additionally, at Richland, Washington, we
                      assessed utilization at each of the five prime contractors
                      (including CH2M Hill, Bechtel Hanford, Inc., Bechtel
                      National, Inc., Fluor Hanford, Inc., and Pacific Northwest
                      National Laboratory). The universe of our audit samples
                      consisted of those vehicles active at the time of our visit
                      and excluded all special purpose vehicles and those
                      vehicles not subject to utilization standards.


METHODOLOGY           To accomplish our audit objective, we:

                         •   Reviewed applicable laws and regulations
                             pertaining to the utilization of fleet vehicles;

                         •   Reviewed prior reports issued by the Office of
                             Inspector General;

                         •   Requested lists of all vehicles active as of the date
                             of our site visit from each prime contractor at the
                             sites visited;

                         •   Used the U.S. Army Audit Agency Statistical
                             Sampling Software to randomly select a sample of
                             vehicles to review at each site using the following
                             parameters: confidence level – 95 percent, precision
                             rate – 5.0, and expected error rate – 20 percent;

                         •   Reviewed applicable local utilization standards that
                             were in place;



________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Reviewed supporting documentation for our
                             samples of vehicles reviewed;

                         •   Interviewed site fleet managers to gain an
                             understanding of roles, responsibilities and
                             procedures for determining the utilization of fleet
                             vehicles;

                         •   Evaluated the Department's implementation of the
                             Government Performance and Results Act of 1993
                             related to the utilization of fleet vehicles;

                         •   Calculated the average number of underutilized
                             vehicles by adding the number of underutilized
                             vehicles in FY 2004 and the number in FY 2005
                             and dividing by two;

                         •   Calculated the average percentage of underutilized
                             vehicles by dividing the average number of
                             underutilized vehicles by the number of vehicles in
                             our sample; and,

                         •   Calculated the estimated potential savings at each
                             site by multiplying the average total cost associated
                             with operating the fleet by the average percentage
                             of vehicles driven less than 50 percent of the local
                             use standard.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
                      time of our audit. We also assessed performance measures
                      in accordance with the Government Performance and
                      Results Act of 1993 regarding the utilization of fleet
                      vehicles. We found that the sites visited had established
                      measures specific to the utilization of fleet vehicles. We
                      relied on computer-processed data to accomplish our audit
                      objective. We performed limited test work of data
                      reliability during our audit and determined that we could
                      rely on the computer-processed data. An exit conference
                      was held with representatives from the Office of Science,
                      and the Office of Civilian Radioactive Waste Management
                      at Headquarters on May 10, 2006.

________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2


                                  DETAILED RESULTS

The table below details the data analysis results at each site visited:

    Location/Site        Vehicles Underused       Estimated  Average   Average
                          Tested   FY 2004         FY 2005   Number    Percent
                                                  Underused Underused Underused
Lawrence Berkeley          122           68           85       76       62%

Oak Ridge
            ORNL           165           95            81           88    53%
     BWXT, Y-12            152           42            25           33    22%
    Bechtel Jacobs         139           60            55           57    41%
  Oak Ridge Office          78           15             7           11    14%
Wackenhut – NNSA            42           12            11           11    26%
           ORISE            21            1             9            5    24%
            ETMC            25            7             5            6    24%
 Wackenhut – DOE            15            4             1            2    13%
             OSTI            7            1             1            1    14%

Richland
      Fluor Hanford        178           35            40           37    21%
         CH2M Hill          88           22            30           26    30%
    Bechtel National        72           18            32           25    35%
             PNNL           81           11            13           12    15%
    Bechtel Hanford         68           11            17           14    21%

Nevada                     191           39            57           48    25%

Yucca Mountain              75           15            12           13    17%

Lawrence Livermore         198           9            17            13     7%
      Total               1,717         465           498           481   28%




________________________________________________________________
Page 11                                           Detailed Results
Appendix 3


                                   PRIOR REPORTS

•   Richland Operations Office Fleet Management (WR-B-01-01, January 2001). The
    audit identified that 85 percent of the vehicles were used less than Department of
    Energy (Department) mileage standards and 27 percent of the vehicles were used less
    than the local mileage standards. This audit concluded that Richland had too many
    fleet vehicles and could save approximately $1.7 million annually if they reduced
    their fleet by 559 vehicles. The audit recommended that Richland measure vehicle
    use against Department standards.

•   Vehicle Use at Lawrence Livermore National Laboratory (WR-B-00-07, September
    2000). The audit identified that the allotment of 516 on-site discretionary vehicles at
    Livermore site was too large. The audit concluded that Livermore could reduce the
    on-site discretionary vehicles by 363 to meet its established usage standard. This
    could reduce its vehicle lease costs by at least $690,000 per year by returning vehicles
    that did not meet the local use standards. Therefore, the audit recommended that
    vehicles not meeting the use standards be returned to GSA. It also recommended
    changes to the methodology for measuring vehicle use.

•   Vehicle Fleet Management at the Idaho National Engineering and Environmental
    Laboratory (WR-B-99-02, March 1999). The audit identified that 45 percent of the
    light vehicles (excluding special purpose vehicles) were used significantly less than
    the mileage standards. As a result, the audit concluded that the light vehicle fleet was
    still larger than necessary. This finding was disturbing in light of Idaho and
    Department Headquarters agreement with prior recommendations. The report
    recommended that Idaho annually review individual vehicle use against mileage
    standards and promptly dispose of or reassign vehicles not meeting the standards. It
    also recommended that the Idaho Deputy Manager be provided a vehicle assignment
    report for review and approval.

•   Audit of Light Vehicle Fleet Management in the Department of Energy (DOE/IG-
    0362, December 1994). The report identified that about 46 percent of the vehicles
    reviewed did not meet the Department operations offices' established local use
    standards, which were substantially below suggested Department guidelines. The
    audit estimated that a reduction of 10 percent would result in potential savings of
    approximately $7 million in vehicle acquisition costs and $3 million annually through
    reduced operating and maintenance costs. This audit also disclosed that some
    Department-owned fleets could be operated more economically by leasing the
    vehicles from GSA.




________________________________________________________________
Page 12                                               Prior Reports
Appendix 4




________________________________________________________________
Page 13                                      Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 14                                      Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 15                                      Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 16                                      Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 17                                      Management Comments
                                                             IG Report No. DOE/IG-0728

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
